               Office of Inspector General




September 13, 2004

TIMOTHY C. HEALY
MANAGER, ALBANY DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Albany District
         (Report Number DR-AR-04-006)

This is one of a series of audit reports on the Self-Service Vending Program in the
Northeast Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Albany District (Project Number 04YG017DR001).
The information in this district report will be included in a report to the Northeast Area
Vice President.

                                                   Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Northeast Area had 2,113 pieces of vending equipment that
generated approximately $30 million in revenue, of which the Albany District
maintained 15 percent (323) of the total area machines that generated over 13 percent
($3.8 million) of the total area vending revenue. During the first quarter of FY 2004, the
Northeast Area had 2,176 pieces1 of vending equipment that generated over
$8.6 million in revenue, of which the Albany District maintained 15 percent (3272) of the
total area machines that generated over 13 percent ($1.1 million) of the total area
vending revenue.




1
    During the first quarter of FY 2004, the Northeast Area had 63 additional vending machines.
2
    During the first quarter of FY 2004, the Albany District had four additional vending machines.

       1735 N Lynn St.
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                                          DR-AR-04-006
 Albany District


                           Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. We also physically observed a
judgmental sample of 20 vending machines to determine whether the machines were
operational and easily accessible. For the 323 vending machines operating in the
Albany District during FY 2003, 633 were classified as obsolete based on Postal Service
guidance, while the remaining 260 were classified as current equipment. For the
first quarter of FY 2004, 327 vending machines were operating in the Albany District, of
which 634 were classified as obsolete, and the remaining 264 were classified as current
equipment.

During our audit, we visited Postal Service facilities and interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.5 Although we relied
on data obtained from the VESS, we did not test the validity of the data and controls
over the system.

Audit work associated with the Albany District was conducted from March through
September 2004 in accordance with generally accepted government auditing standards
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                       Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
3
  This number includes four currency changer machines, which do not generate revenue.
4
  This number includes four currency changer machines, which do not generate revenue.
5
  Obsolete equipment was not included in the minimum revenue analysis.



                                                       2
Self-Service Vending Program –                                                                         DR-AR-04-006
 Albany District


revenue requirements and the districts may have missed revenue opportunities of
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations
and the actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Albany District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, Albany District officials
could increase revenue opportunities by redeploying equipment that does not meet
minimum revenue requirements. Further, Albany District officials could possibly reduce
maintenance and repair costs by discontinuing the use of obsolete equipment.
Additionally, while our physical observation of vending machines in the Albany District
indicated that overall, the machines were easily accessible; the machines were not
always operable.

Redeployment of Vending Machines

Albany District officials could improve their process for redeploying vending equipment
that does not meet Postal Service’s minimum revenue requirements. Specifically,
during FY 2003, our review of the vending equipment revenue reports indicated that
78 percent (203 of 260) did not meet the minimum revenue requirements. Vending
equipment sales were approximately $1.6 million, which was significantly less than the
minimum revenue requirement of $4 million. As a result, the Albany District may have
missed revenue opportunities of approximately $795,344 to $2.4 million by not
redeploying this equipment.6

Additionally, in the first quarter of FY 2004, our review of the vending equipment
revenue reports indicated that 70 percent (185 of 264) did not meet the minimum
revenue requirements. Vending equipment sales were approximately $337,026,
which was significantly less than the minimum revenue requirement of $835,320. As
a result, the Albany District may have missed revenue opportunities of approximately
$498,294 by not redeploying this equipment.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does

6
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $795,344 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $2.4 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                   DR-AR-04-006
 Albany District


not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
August 7, 2003), establishes the minimum revenue requirements for vending machines.
The district retail office is responsible for evaluating equipment revenue to find the right
location for the right machine. If self-service vending equipment is located in an area
where it is unable to generate enough revenue to meet the minimum requirement, the
equipment must be considered for redeployment. If revenue does not meet the
minimum requirement in three to six accounting periods, the district retail office should
place the equipment on a list for redeployment; notify any office where changes will be
made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials did not initiate redeployment action for the underperforming vending
machines during FY 2003 and the first quarter of FY 2004 because the Self-Service
Vending Program was not considered a high priority and limited resources were
allocated to the program. Work efforts were directed to higher priorities such as
implementing Point of Sale throughout the district. By not taking action to redeploy
underperforming equipment, the district could miss revenue opportunities during the
remainder of FY 2004.

District officials also expressed concern regarding the Postal Service’s methodology
used to establish minimum revenue requirements, and the machines capabilities of
accepting debit and credit cards. District officials also expressed concern regarding the
limited availability of high demand vending machines, including Model PBSM 624
machines. We plan to forward the district’s concerns to Postal Service Headquarters.

We discussed the results with Albany District officials and they agreed that they could
improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements. District officials indicated that plans are
being made to reassess vending locations based on an analysis of vending operations
and receipt of 12 automated postal centers.7

Recommendation

We recommend the Manager, Albany District, direct the Retail Manager to:

1. Review revenue reports to identify underperforming equipment, notify postmasters of
   vending equipment that generates low revenue, and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.
7
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                       4
Self-Service Vending Program –                                                                   DR-AR-04-006
 Albany District



Management’s Comments

Management agreed with the finding and recommendation. Management stated that
they will complete a review of existing equipment and make further redeployments
where feasible based upon current revenue generated and potential revenue at
alternate sites. Management stated that they will begin this initiative with an August roll
up of current location performance and establish ongoing monitoring of performance.
Management will share this information with each of the Postal Service Operations
Managers and will work to target removals and alternate sites for the equipment in each
geographic area. Management’s comments, in their entirety, are included in the
appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
actions taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Albany District officials continued to use 598 obsolete machines and
possibly incurred maintenance and repair expenses, although Postal Service policy
discontinued the maintenance and repair support for the machines in June 2000.9 Our
review of vending equipment revenue reports showed none of the machines met
minimum revenue requirements. Additionally, during the first quarter of FY 2004, our
review of vending equipment revenue reports indicated that 98 percent (58 of 59) did
not meet minimum revenue requirements.

District officials stated they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service since replacement
equipment was not available. As a result, during FY 2003 and the first quarter of
FY 2004, the district possibly incurred maintenance and repair expenses that may have
exceeded the revenue generated by continuing to operate and maintain the obsolete
machines. We were unable to determine the amount of repair and maintenance
expenses associated with the machines because the Postal Service does not capture
the data for each machine.10

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be

8
  This number excludes four currency changer machines, which do not generate revenue.
9
  This Maintenance Management Order (MMO) supplements MMO-018-96, June 21, 1996, Discontinuance of
Support for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models
of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
10
   We plan to address this issue in a capping report to Postal Service Headquarters officials.



                                                       5
Self-Service Vending Program –                                                 DR-AR-04-006
 Albany District


reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when the new automated postal centers are deployed to the district locations.

Recommendation

We recommend the Manager, Albany District, direct the Retail Manager to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with the finding and recommendation. Management stated that
the majority of pieces of obsolete equipment in the Albany District are located in Postal
Service sites. They further stated they are not supplying support for parts and service
when the machines break down and the units will be removed from Postal Service
facilities and destroyed as this occurs. Management will also utilize equipment removed
during the automated postal center deployment in October to replace machines where
warranted and will remove the obsolete machines for destruction at that time.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
actions taken or planned should correct the issues identified in the finding.

Physical Observation of Vending Equipment

Our physical observation of vending machines in the Albany District indicated that
overall the machines were easily accessible, but not always operable. Specifically,
20 percent (4 of 20) of the machines judgmentally selected for review were not
operating properly. Two of the four machines had notices posted as being out of
service in April 2004; however, the inoperable machines were not listed in VESS in
April 2004. The remaining two machines would not take currency in April 2004, even


                                             6
Self-Service Vending Program –                                                 DR-AR-04-006
 Albany District


though they were designed to accept it, and the inoperable machines were not listed in
VESS in April 2004. District officials indicated the information for the machines was not
listed in VESS because employees inaccurately completed PS Form 8130, Vending
Equipment Sales and Service Daily Activity Log.11 By not properly completing
PS Forms 8130, Postal Service managers have no means of ensuring vending
machines are operable or in need of repair potentially resulting in a loss of revenue.

The VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending costs
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log. Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Recommendation

We recommend the Manager, Albany District, direct the Retail Manager to:

3. Require employees to accurately complete PS Form 8130, Vending Equipment
   Sales and Service Daily Activity Log, for the four machines, detailing the inoperable
   status for each machine, and consider retraining employees to accurately complete
   the forms.

Management’s Comments

Management stated that they will monitor compliance in VESS for accurate completion
of all vending equipment. Management further stated that responsibility for repair and
maintenance rests with the facility managers assigned the vending equipment and that
vending personnel are not the responsibility of the district retail office. Management
stated they had provided complete instructions to all vending sites within the district on
completion of PS Form 8130 and related information. Management further stated they
would monitor form completion and recommend retraining for vending personnel, as
warranted. Management will include a copy of the VESS instruction package to all
vending sites to ensure proper recording. This package is supplied to all vending sites
at the beginning of each fiscal year and includes all the forms required for an entire year
of reporting. Management stated agreement with the finding and recommendation in
subsequent correspondence to the OIG.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
actions taken or planned should correct the issues identified in the finding.


11
     We plan to conduct an audit on the accuracy of data in VESS.



                                                           7
Self-Service Vending Program –                                              DR-AR-04-006
 Albany District



Additional Management’s Comments

Management stated that identifying the vending revenue cited as missed revenue
opportunities was misleading. They stated it would be more accurate to measure this
revenue as diverted revenue since it would have been shifted to the window operations
or other stamp access channels. Management provided proposed language to change
the report to reflect their views.

Evaluation of Management’s Comments

We considered the proposed language management submitted. However, we
determined that the term missed revenue opportunities was more appropriate as our
audit focused on vending operations only. The Postal Service measures the
performance of vending operations by revenue generated; accordingly, we believe the
term missed revenue opportunities more appropriately represents the performance
measure rather than revenue diverted.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions, or need additional information, please contact Debra D.
Pettitt, Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Suzanne M. DeLyons
    Kenneth G. Bauer
    Matthew J. Difiore
    Steven R. Phelps




                                           8
Self-Service Vending Program –                        DR-AR-04-006
 Albany District


                    APPENDIX. MANAGEMENT’S COMMENTS




                                   9
Self-Service Vending Program –        DR-AR-04-006
 Albany District




                                 10
Self-Service Vending Program –        DR-AR-04-006
 Albany District




                                 11
Self-Service Vending Program –        DR-AR-04-006
 Albany District




                                 12
Self-Service Vending Program –        DR-AR-04-006
 Albany District




                                 13
